<html>
<title> - EARTHQUAKE MITIGATION: REAUTHORIZING THE NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                         EARTHQUAKE MITIGATION:
                       REAUTHORIZING THE NATIONAL
                  EARTHQUAKE HAZARDS REDUCTION PROGRAM

=======================================================================

                             FIELD HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 31, 2018

                               __________

                           Serial No. 115-62

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                           _________ 

               U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-325 PDF               WASHINGTON : 2018            
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
                            C O N T E N T S

                              May 31, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Dana Rohrabacher, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     4
    Written Statement............................................     6

Statement by Representative Mark Takano, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Jerry McNerney, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12

Written statement by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives                                      13

                               Witnesses:

Dr. Steven McCabe, Director, National Earthquake Hazards 
  Reduction Program; Group Leader, Earthquake Engineering Group, 
  National Institute of Standards and Technology
    Oral Statement...............................................    15
    Written Statement............................................    17

Dr. Stephen Hickman, Director, USGS Earthquake Science Center, 
  U.S. Geological Survey
    Oral Statement...............................................    26
    Written Statement............................................    28

Dr. Frank Vernon, Research Geophysicist, Institute of Geophysics 
  and Planetary Physics, Scripps Institution of Oceanography, UC 
  San Diego
    Oral Statement...............................................    35
    Written Statement............................................    38

Mr. Chris D. Poland, Consulting Engineer; NIST Community 
  Resilience Fellow
    Oral Statement...............................................    46
    Written Statement............................................    49

Mr. Ryan Arba, Branch Chief, Earthquake and Tsunami Program, 
  California Governor's Office of Emergency Services
    Oral Statement...............................................    61
    Written Statement............................................    63

Discussion.......................................................    70


             Appendix I: Answers to Post-Hearing Questions

Dr. Stephen Hickman, Director, USGS Earthquake Science Center, 
  U.S. Geological Survey.........................................    92

            Appendix II: Additional Material for the Record

Documents submitted by Representative Jerry McNerney, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    94


                         EARTHQUAKE MITIGATION:



                           REAUTHORIZING THE



                      NATIONAL EARTHQUAKE HAZARDS



                           REDUCTION PROGRAM

                              ----------                              


                         THURSDAY, MAY 31, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 2:03 p.m., in the 
Huntington Beach Civic Center, 2000 Main Street, Huntington 
Beach, CA, Hon. Dana Rohrabacher presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Present: Representatives Rohrabacher, McNerney, and Takano.
    Mr. Rohrabacher. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the Committee at any time.
    Good morning, and welcome to today's hearing entitled 
``Earthquake Mitigation: Reauthorizing the National Earthquake 
Hazards Reduction Program.''
    I recognize myself for five minutes for an opening 
statement.
    Again, welcome to my colleagues to Huntington Beach. I am 
very pleased that you both came today. It is my honor, of 
course, to welcome you to Surf City, USA, but also the city 
that, I might add, is the city where we built the first stage 
of the Saturn rocket that took the first human beings to the 
moon. We are very proud of our beach culture. We are very proud 
of our aviation and our space achievements.
    I am glad that two of my colleagues have been able to join 
us today, Representative Mark Takano and Jerry McNerney. Both 
have really been very active with me over the years, and 
actually we have very positive personal relationships with each 
other, and I think that demonstrates the type of cooperation 
that we want to see in Congress and that is exemplified by the 
Science Committee.
    In California at any moment, we know that we could face a 
really big earthquake, not just a little shaker but a big 
earthquake. It is something that we can get complacent about 
because it always seems to be in the future that it might 
happen, and then when it doesn't we get complacent. Well, the 
risk is very real.
    According to the USGS, California has a 99 percent chance 
of experiencing a magnitude 6.7 or larger earthquake over the 
next 30 years. The likelihood of an even larger earthquake, 
with a magnitude of 7.5 or greater, is 46 percent, and such an 
earthquake would likely occur in the southern part of 
California. So this is a major threat that we need to look at.
    But California, of course, is not alone when it comes to 
this. Close to 75 million people in 39 states face some risk of 
an earthquake.
    For 40 years the National Earthquake Hazards Reduction 
Program--now I am going to have to be reminded--how do we 
pronounce that? NEHRP. Okay, now I know how to say it. NEHRP 
has supported efforts to assess and monitor earthquake hazards 
and risks here in the United States.
    Four Federal agencies coordinate their earthquake 
activities under NEHRP: The U.S. Geological Survey, the 
National Science Foundation, the Federal Emergency Management 
Agency, and the National Institute of Standards and Technology. 
These agencies assess U.S. earthquake hazards, deliver 
notifications of seismic events, develop measures to reduce 
earthquake hazards, and conduct research to help reduce the 
overall U.S. vulnerability to earthquakes.
    Congress had last reviewed and reauthorized this program in 
2004, and that law expired in 2009. Although Congress 
continues, however, to appropriate funds for this important 
work, we are long overdue in reauthorizing this program. We 
must ensure it is effective and up-to-date with the latest 
knowledge and science for monitoring and mitigation of 
earthquakes.
    I am particularly interested in how we can improve the use 
of data to advance the deployment of an effective earthquake 
early warning system. I will be very interested in hearing if 
that is even possible, and to what degree we could use this as 
a goal. Such a system would automatically send an alert to 
areas in danger of potential shaking after the earthquake has 
been initially triggered. The alert would potentially allow 
components of the lifeline infrastructure such as electric 
utilities, railroad systems, and even hospital operating rooms, 
to cease activity that could be impaired by violent shaking 
before the first earthquake-triggered surface waves actually 
reach them.
    We know that Senators Dianne Feinstein and Lisa Murkowski 
have introduced bipartisan legislation to reauthorize this 
agency and this operation. They have that in the Senate, and I 
will be working with my Science Committee colleagues to 
introduce a bill in the House very soon for this 
reauthorization.
    I thank my witnesses for being here today, look forward to 
your expert testimony.
    [The prepared statement of Mr. Rohrabacher follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Rohrabacher.Maybe we have an opening statement by Mr. 
Takano--I mispronounce your name after I have been talking to 
you for a decade now--Takano--there you go.
    Mr. Takano. I want to welcome everyone to today's hearing. 
I just want to make sure that the live stream is functioning. I 
got some reports that it wasn't working on the Science 
Committee website yet.
    I want to welcome everyone to today's hearing to review the 
nation's foremost earthquake research and risk mitigation 
activities under the National Earthquake Hazards Reduction 
Program, otherwise known as NEHRP. I look forward to our expert 
panel's assessment of the program's strengths, weaknesses, and 
challenges, and recommendations for improvements.
    As an Inland Empire native, I am all too familiar with the 
damage that can be caused by earthquakes. Just this month, the 
Riverside area experienced a 4.5 earthquake followed by two 
smaller earthquakes. While there were no reports of injuries or 
damage, it reminds us that we need continued strong support of 
our Federal earthquake risk mitigation activities.
    Now, I am proud to recognize in the audience Dr. David 
Oglesby--Dr. Oglesby is raising his hand in the back there, let 
the record show that--and Dr. Christos Kyriakopoulos--now I 
have a more difficult name than my name, Mr. Chairman--of the 
University of California, Riverside. They are both in the 
audience today, and they are from my district.
    Set up on display way over at the back of the City Council 
Chambers is a 3D printed representation of the fault lines in 
the State of California that my university produced, and I have 
a smaller version of it. People think that the faults are maybe 
just one spine, but really you can see that it is a really 
amazing amalgamation of faults. To know that here is L.A., here 
is Huntington Beach, San Diego, and Riverside, you can see that 
we are sitting on top of numerous faults that come together.
    Mr. Chairman, I want to let you know that the University 
has been so kind as to produce one of these for you and for 
Representative McNerney, and I hope that we can get one to each 
member of our delegation.
    Mr. Rohrabacher. We will keep it on the wall, unless it 
falls down in an earthquake.
    [Laughter.]
    Mr. Takano. But I think it will raise awareness of just how 
much we need to keep our eye on the ball.
    We struggle with how to encourage cities and regions in 
high earthquake risk areas to implement mitigation measures, 
but I have a feeling that these kinds of demonstrations might 
help. We can't forget the importance of social and behavioral 
aspects of earthquake risk mitigation. I encourage everyone to 
take a look at the display, the big display, at the end of the 
hearing.
    Following the devastating earthquakes in Alaska and 
California in 1964 and 1971, Congress established NEHRP and 
tasked four agencies--the National Science Foundation, the U.S. 
Geological Survey, the Federal Emergency Management Agency, 
otherwise known as FEMA, and the National Institute of 
Standards and Technology, otherwise known as NIST. NIST was 
tasked as the lead agency--to reduce the risks to life and 
property from future earthquakes. The good work of these 
agencies and their public- and private-sector partners has 
advanced the nation's understanding of earthquakes and provided 
the science that supports seismic design guidelines and 
standards for resilient buildings that save countless lives.
    Unfortunately, economic damages are still very high after 
extreme natural hazards, and it is important to invest in 
community resilience. Resilient lifelines, such as roadways, 
pipelines, power lines, and communications infrastructure, can 
help get communities back up and running sooner after a big 
earthquake. In fact, the National Institute of Building 
Sciences recently released ``National Hazard Mitigation Saves: 
2017 Interim Report.'' It is a document, and it found that for 
every for $1 spent on hazard mitigation, the nation saves $6 in 
disaster costs.
    Though the West Coast is widely known for its earthquake 
risk, the U.S. seismic hazard maps show that the central and 
eastern parts of the nation, as well as Puerto Rico and the 
U.S. Virgin Islands, are also categorized as having a high 
probability for strong earthquakes. Two hundred years ago, the 
New Madrid seismic zone in the middle of our country endured 
three 7.0 or higher earthquakes. Further, the composition of 
the earth under these regions allows the impact of an 
earthquake to be felt at several times the distance as an 
earthquake on the West Coast.
    Now, while several countries in seismic prone areas have 
had earthquake early warning systems for many years, the U.S. 
continues to develop and implement pilot programs for a West 
Coast early alert system. I look forward to hearing from the 
panel today about what Congress can do to accelerate, and 
eventually expand, deployment of this lifesaving technology 
that can provide seconds to tens of seconds of time that could 
stop surgeries, keep airplanes in the air, and shut down 
nuclear power plants and other sensitive machinery. I also 
believe it is important that we better understand the current 
state of our infrastructure and buildings and how retrofitting 
can mitigate both the loss of life and the cost of rebuilding 
after an earthquake.
    These issues are so very important to regions across the 
nation, and I thank the panel for their testimony before this 
Committee and as this Committee considers legislative 
priorities for NEHRP authorization.
    Thank you, and I yield back, Mr. Chairman.
    [The prepared statement of Mr. Takano follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Rohrabacher. Thank you, Congressman Takano.
    And now, Congressman McNerney.
    Mr. McNerney. Well, I thank the Chairman, my friend from 
Huntington Beach, for calling this hearing. I thank the 
panelists for coming in, and I am looking forward to your 
testimony.
    My district is a little north of here. It is in the Delta 
region of California. So we have the confluence of the San 
Joaquin River and the Sacramento River forming the California 
Delta. It has an extensive system of levies. Many are very 
aged, so we are very concerned.
    The Governor has a plan to put in tunnels, and we need to 
understand what the seismic risks of that project may be.
    But in all, we see damage when we have earthquakes, and it 
is so important to have a set of very good standards that 
mitigate or help us mitigate the damage. For example, we have 
seen in other countries in the last century earthquakes of a 
magnitude of 4 to 5 that have caused immense damage and 
thousands upon thousands of deaths, whereas in this country we 
have earthquakes on the order of a magnitude of 7 on the 
Richter scale, and we have seen tragic damage, but nothing on 
the scale that we have seen overseas.
    So these standards are very, very important to the health 
and safety and economic well-being of our communities and our 
country. That is why NEHRP's mission is so important, and we 
want to make sure that we understand what sort of objectives 
are realistic with your mission, with NEHRP's mission, and how 
we can obtain those objectives, how much it is going to cost, 
and so on.
    So I welcome your testimony, and I look forward to the back 
and forth afterwards.
    Thank you, Mr. Chairman.
[The prepared statement of Ranking Member Eddie Bernice 
Johnson:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rohrabacher. Thank you, Congressman McNerney.
    This is a very serious issue today. This is very serious 
because we know that this potential dangerous situation is 
hanging right there. It could happen tomorrow, and it could 
happen ten years from now or 100 years from now, but we know it 
could happen tomorrow. We need to make sure we are prepared, 
and I appreciate my two colleagues joining us today, and I 
appreciate the witnesses that we have.
    We have first-class witnesses to help us understand the 
threat and how we should move forward, if there are ways to 
move forward, to mitigate this challenge.
    I will introduce the witnesses, and we will start.
    The first witness today is Dr. Steven McCabe, Director of 
the National Earthquake Hazards Reduction Program. Let me note 
that the leader of the Earthquake Engineering Group is also 
there with NIST. Dr. McCabe has received both his Bachelor of 
Science and Master of Science inmechanical engineering from 
Colorado State University. He also earned a Ph.D. in civil 
engineering from the University of Illinois at Urbana-
Champaign.
    Dr. Stephen Hickman, our second witness today, is Director 
of the U.S. Geological Survey Earthquake Science Center in 
Menlo Park. Dr. Hickman received a bachelor degree in geology 
from Earlham College, as well as a Ph.D. in solid Earth 
geophysics from MIT.
    And then Dr. Frank Vernon, our third witness today. He is a 
Research Geophysicist at the Institute of Geophysics and 
Planetary Physics at the Scripps Institute of Oceanography at 
the University of California at San Diego. Boy, that is a 
mouthful.
    [Laughter.]
    Mr. Rohrabacher. He is also the Director for the USArray 
Network Facility for the NSF EarthScope Program. Dr. Vernon 
received a B.A. in physics from UC-San Diego, and a Ph.D. in 
Earth science from Scripps Institute of Oceanography.
    We also have with us Chris Poland, our fourth witness. He 
is a consulting engineering and a NIST Community Resilience 
Fellow. He previously served as Chairman of NEHRP on the NEHRP 
Advisory Committee. Mr. Poland earned his Bachelor of Science 
in mathematics from the University of Redlands and his Master 
in Science in structural engineering from Stanford University.
    Our final witness today is Mr. Ryan Arba, a Branch Chief of 
the Earthquake and Tsunami Program in the California Governor's 
Office of Emergency Services. He oversees the state's 
preparedness efforts for seismic events. Mr. Arba received a 
degree in social and behavioral sciences from Cal State 
Monterey Bay, and a master's in public administration from the 
University of Southern California.
    I would suggest that if we keep it down to five minutes 
apiece, we then will have a dialogue, which is what this 
hearing was intended for.
    So I now recognize Dr. McCabe for five minutes to present 
his testimony.

           TESTIMONY OF DR. STEVEN MCCABE, DIRECTOR,

         NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM;

          GROUP LEADER, EARTHQUAKE ENGINEERING GROUP,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. McCabe. Thank you. Chairman Rohrabacher, Congressman 
Takano, Congressman McNerney, I am Dr. Steven McCabe, the 
Director of the National Earthquake Hazards Reduction Program, 
or NEHRP. Thank you for the opportunity to appear before you 
today to discuss NIST's role in reducing the earthquake risk 
facing U.S. communities. NIST is the lead agency in the four-
agency partnership that is NEHRP. The Federal Emergency 
Management Agency, the National Science Foundation, and the 
U.S. Geological Survey are the other three partners.
    Earthquake concerns are truly national in scope. Forty-two 
states and a number of territories face serious risk from 
earthquakes. The 1971 San Fernando earthquake caused serious 
damage and was a motivating factor for the creation of NEHRP. 
More recently, there have been significant increases in seismic 
activity in southern Kansas and in Oklahoma. There are simply 
no areas of the nation with zero risk from earthquakes.
    Mitigation efforts through such efforts as improved 
building codes can make a significant difference in saving 
lives, which is the primary goal of earthquake-related 
provisions in U.S. building codes and standards, the NEHRP 
agency's work to perform needed research and to translate 
research results into actions that mitigate the impact on the 
nation. These include the development of national hazard models 
and maps; disaster investigations concerning engineering, 
geology, seismology, and social science aspects of an 
earthquake; participation in the development of model building 
codes and associated standards; and the funding of basic 
research.
    NIST carries out applied research to develop and deploy 
advances in measurement science related to earthquake 
engineering, including standards to enhance disaster resilience 
of buildings, infrastructure, and communities. NIST research 
has provided data to support improved codes and standards 
through testing of structural elements, developed improved 
modeling and assessment techniques for existing buildings, and 
assess the impact of new materials in improving seismic 
performance. NIST is actively collaborating with FEMA in 
addressing non-ductile concrete building performance such as 
that noted in the Los Angeles area concerning older buildings. 
NSF funded initial work on this problem. In 2015, the City of 
Los Angeles enacted ordinance 183893, which is a mandatory 
retrofit program for soft first-story wood-frame buildings and 
non-ductile concrete buildings. Seismologist Dr. Lucy Jones, on 
loan from USGS and working with the City of Los Angeles, was a 
key voice in this process. Thus, the enactment of this 
important ordinance is a result of the activity of all four 
NEHRP agencies in addressing this problem.
    Preventing collapse so that occupants could safely leave 
damaged buildings has been the goal inherent in building codes 
since their inception in 1915. However, there has been a 
growing call for expedited recovery from earthquake and other 
natural hazard events. Significant economic interruptions due 
to earthquake damage are no longer acceptable.
    NIST has initiated a large effort to aggressively study the 
engineering, social, economic, and policy issues concerning 
making communities resilient. A community resilience planning 
guide has been developed for us by local communities in 
planning their own resilient future. NIST also has funded a 
resilience center to provide tools for communities as they 
forge a resilient future.
    Improved building performance is another aspect of moving 
towards resilience. A recent study completed by NIST considered 
what would be required in terms of research and implementation 
for adoption of an immediate occupancy performance objective 
for building design. The concept is to improve building 
performance to the point that occupants would be able to 
quickly reoccupy business and residential buildings following a 
natural hazard event.
    NIST has worked with and looks forward to continuing to 
work with the House Committee on Science, Space, and Technology 
concerning reauthorization of NEHRP. Our challenge is to ensure 
that new knowledge and experience gained through NEHRP 
continues to be developed and applied to domestic practices and 
policies that foster a more resilient nation. We must keep 
working to mitigate the impacts of earthquakes on our 
communities. NEHRP is an integral part of the private-public 
collaboration that continues to reduce risk of damage to our 
communities from seismic ground motions.
    Thank you again for the opportunity to testify on NEHRP, 
and I am happy to answer any questions that you may have.
    [The prepared statement of Dr. McCabe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Rohrabacher. Thank you very much for your testimony.
    Dr. Hickman, you have five minutes.

          TESTIMONY OF DR. STEPHEN HICKMAN, DIRECTOR,

                USGS EARTHQUAKE SCIENCE CENTER,

                     U.S. GEOLOGICAL SURVEY

    Dr. Hickman. Thank you, Congressman Rohrabacher and 
colleagues, for inviting the U.S. Geological Survey to this 
hearing. I am Steve Hickman, Director of the Earthquake Science 
Center. Our center has been a flagship USGS research center in 
the west for over 50 years. Here in Southern California, we 
have had an office in Pasadena for over 40 years, working 
closely with partners in Cal Tech and elsewhere.
    The USGS is a committed partner in NEHRP. The agencies have 
continued to work closely together since the appropriations 
authority for NEHRP expired in 2009. NEHRP was founded on the 
belief that while earthquakes are inevitable, there is much 
that we can do as a nation to improve safety, reduce losses and 
impacts, and increase our resilience.
    Within NEHRP, each agency performs a distinct and 
complementary role. The heart of this partnership is a shared 
commitment to translate the results of research and monitoring 
into actions that can reduce earthquake losses. The USGS role 
within NEHRP is to deliver the scientific data and information 
tools that engineers, emergency managers, government officials, 
and the public need to prevent earthquake hazards from becoming 
disasters.
    USGS activities under NEHRP are implemented through the 
Earthquake Hazards Program and the Global Seismographic 
Network. We provide rapid, authoritative information on the 
magnitude, location, shaking intensity, and potential impacts 
of earthquakes both in the U.S. and around the world. The USGS 
also develops national and regional hazard assessment maps and 
detailed scenarios forecasting the impacts of anticipated major 
earthquakes, and we carry out targeted research to improve 
these products.
    The USGS National Earthquake Information Center, which 
supports this work, is a 24/7 operation providing situational 
awareness for emergency responders and the public. This 
information is made possible by the earthquake monitoring 
networks that make up the Advanced National Seismic System, 
including regional seismic networks that the USGS supports 
through its academic partners.
    Significant improvements to the ANSS were made in 2010 and 
2011. In Fiscal Year 2018, we are continuing this effort by 
directing $5 million for deferred maintenance and, according to 
Congressional direction, $23 billion for build-out of the 
Earthquake Early Warning System called ShakeAlert. Congress has 
appropriated funds in recent years to continue development of 
this system, and the USGS is committed to working with Congress 
to determine the appropriate cost share for future ShakeAlert 
developments. Our goal is not simply to duplicate the early 
warning systems of other countries but to build the most 
advanced earthquake warning system in the world.
    USGS research is supplemented by external research through 
grants and cooperative agreements. The Southern California 
Earthquake Center at University of Southern California, 
supported by the USGS and NSF, is an example of such a research 
partnership. We have supported research projects in various 
academic institutions across Southern California, including Cal 
Tech, USC, UCLA, UC-Irvine, and UC-San Diego. In 2017, our 
external research funding in the region amounted to $4.5 
million.
    All the best science, however, cannot guarantee that people 
are able to use the information to make informed decisions. 
Therefore, the USGS has supported publication of ``Putting Down 
Roots in Earthquake Country,'' now available in eight different 
regions and in five languages. These and other USGS 
publications explain how residents can prepare for, survive, 
and recover from earthquakes.
    We have learned much about earthquakes in California, and 
translated that knowledge into better building codes and better 
emergency response plans. While many critical pieces of 
infrastructure have been retrofitted to better withstand 
earthquake shaking, other infrastructure has lagged. Many 
seaports and some airports are built on land that is 
susceptible to liquefaction where shaking causes the soil to 
temporarily lose strength and cohesion and flow laterally, 
behaving something like quicksand.
    Lastly, I want to remind the Committee of the annual great 
ShakeOut, which began in 2008 as part of a scenario of a great 
earthquake on the southern San Andreas Fault. This year's 
ShakeOut event happens in October on the 18th at 10:00 a.m. in 
the morning. People around the country and the world will 
participate in drills to practice safe responses to an 
earthquake. Please encourage enlisting your offices in 
participating at Shakeout.org.
    In summary, the Department of the Interior supports 
reauthorization of NEHRP because it has been a successful 
interagency partnership that continues to make valuable 
contributions to the nation's resilience to earthquakes and 
other hazards.
    On behalf of the USGS, thank you for this opportunity to 
testify today.
    [The prepared statement of Dr. Hickman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Rohrabacher. Thank you very much for your testimony.
    Dr. Vernon?

                 TESTIMONY OF DR. FRANK VERNON,

                     RESEARCH GEOPHYSICIST,

         INSTITUTE OF GEOPHYSICS AND PLANETARY PHYSICS,

       SCRIPPS INSTITUTION OF OCEANOGRAPHY, UC SAN DIEGO

    Dr. Vernon. Chairman Rohrabacher, Representative Takano, 
and Representative McNerney, thank you for the opportunity to 
discuss the National Earthquake Hazards Reduction Program. My 
name is Frank Vernon. I am the Director of the USArray Array 
Network Facility, which is part of the EarthScope Program, and 
I work at the UC-San Diego Scripps Institution of Oceanography 
Institute of Geophysics and Planetary Physics.
    I would also like to ask to have my written testimony 
entered into the record as the formal record, please.
    Mr. Rohrabacher. Without objection, and that will also be 
true for our other witnesses as well.
    Dr. Vernon. Most of my career has been focused on 
developing distributed real-time sensor networks and autonomous 
sensor networks in terrestrial and marine environments. In 
1982, in partnership with the USGS, we deployed the first 
digital seismic telemetry network in the U.S. on the San 
Jacinto Fault down here, what is known as the ANZA network. 
That network is funded by the USGS through NEHRP, through its 
instantiation in 1982, and then funding for that continued 
through 2014.
    Another project that we have been working on is the 
EarthScope/USArray, which is the primary thing. USArray is a 
project that is the seismological component of the EarthScope 
program at NSF. The core of the USArray project was known as 
the transportable array comprised of 500 broadband seismic 
stations deployed at a nominal 70-kilometer grid bounded by the 
borders of the lower 48 states. Each station was deployed for 
about two years, enrolled from a manner from the West Coast to 
the East Coast starting in 2004 and completing in 2015.
    After the TA completed work on the lower 48 in 2015, the 
project was divided into two parts. Under NSF funding, funding 
was secured to deploy approximately 280 stations in the State 
of Alaska, and that project was then slated to continue through 
2019 and 2020, depending on which of the stations you are 
talking about.
    Approximately 160 stations deployed in the TA have been 
transitioned into the Eastern U.S. seismic network, which 
started in 2014. CEUSN, as we call it, data streams have been 
integrated into the Advanced National Seismic System, the ANSS, 
and the operations are now being transitioned to USGS internal 
operations.
    In my opinion, it was a missed opportunity when USArray TA 
was proposed that the USGS and NSF did not come up with a plan 
to transition all the TA sites into the ANSS permanent 
stations. If that had occurred, the 48 states would have 
approximately a 1,600-station network with a nominal 70-
kilometer grid recording all earthquakes down to a magnitude 
1.5 with completeness for the whole lower 48 states. With the 
current deployment in Alaska, there is still opportunity to 
decide to transition the TA stations into a permanent Alaska 
seismic network, a key component of the ANSS.
    Another component of the USArray program was funded through 
the American Recovery and Reinvestment Act leveraging the 
existing permitting field program and telemetry to augment with 
infrasound and meteorological sensors. This is something that I 
think is very important. Those of us who are in the field side 
of things do a lot of work dealing with permits, dealing with 
access to sites, dealing with communications, dealing with 
networking, and we should be leveraging this much more broadly 
than we have historically been in the past.
    For instance, the data that we put in these meteorological 
sensors that have been used are now available to the National 
Weather Service for incorporation into forecast models.
    Overall, I think I would like to step back a bit and say 
the NEHRP program has been extremely beneficial towards our 
understanding of earthquakes and their related hazards. The 
strengths of the program are the partnerships between academic 
organizations, state agencies, and Federal NEHRP agencies, 
which has been remarkable. Based on my experience of deploying 
and operating seismic networks and field experiments under NSF 
and USGS funding, as well as conducting research on these data, 
I would like to make the following recommendations.
    First is to keep a well-funded basic and applied research 
NSF program in earthquake engineering, the properties of 
earthquake sources, ground motion estimation, and other aspects 
of earthquake faulting, which will be key to make advances to 
understand the earthquake hazards and earthquake risks.
    Second is to keep a sustainable Advanced National Seismic 
System, including continuing support for the existing eleven 
regional seismic network operators.
    Next would be to support research at ANSS partner 
facilities that improves their ability to deliver accurate 
earthquake assessments and products. Each of these networks 
that operate in each of these regions has a much more specific 
knowledge where they are operating, whether it be Northern 
California or Alaska or Washington, wherever these other 
network operators are.
    A thing that people might not think about is I think there 
is an opportunity to think about how to improve the permitting 
process of how we deploy these stations, because we have to 
deal across multiple agencies, whether it is Agriculture or 
Interior, and how do we set up a more standardized format 
instead of having it be regionalized by each district or 
national forest or national park, figure out a methodology to 
make that more efficient and make less friction in the process.
    I think shared resources between agencies should be 
encouraged. For example, a seismic site is permitted and has 
telemetry; why not add to this investment by adding more 
sensors such as meteorological sensors that can be used by the 
National Weather Service or another project I am involved with, 
wildfire cameras in places that can provide information in 
those situations.
    I would recommend that the Alaska TA be integrated into the 
Alaska Earthquake Center operations and into the ANSS, maybe 
using some partnership with NASA and NOAA. There are some 
opportunities there that might be useful because the data are 
used for multiple agencies.
    And finally, I would like to echo the recommendation of the 
Scientific Earthquake Studies Advisory Committee in keeping 
equal amounts of resources towards research as well as towards 
the network operations.
    In closing, I would like to thank the Committee for the 
opportunity to testify on the review of the Federal National 
Earthquake Hazards Reduction Program and say that hazard and 
risk reduction is more important now than ever before 
considering how much we have built up our environment.
    Thank you.
    [The prepared statement of Dr. Vernon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Rohrabacher. Thank you very much.
    Mr. Poland?

               TESTIMONY OF MR. CHRIS D. POLAND,

                      CONSULTING ENGINEER;

                NIST COMMUNITY RESILIENCE FELLOW

    Mr. Poland. Mr. Rohrabacher, Mr. Takano, and Mr. McNerney, 
thank you very much for the opportunity to speak here today on 
behalf of the American Society of Civil Engineers. My name is 
Chris Poland. I am a licensed civil and structural engineer 
with over 40 years of experience and professional practice in 
structural engineering and earthquake engineering.
    I am the NIST Community Resilience Fellow, and my testimony 
today represents the interests also of the Earthquake 
Engineering Research Institute.
    NEHRP, now embodied in the public law, remains a solid 
foundation for the continued advancement of seismic safety and 
resilience for the nation. Over the past 40 years the program 
has sponsored extensive research addressing all facets of 
earthquake science and engineering. Its fundamental strength 
rests in its longevity, continuous funding, and the cooperative 
efforts of the four NEHRP agencies.
    As both the leader within the NEHRP program and a consumer 
of the information in my engineering practice, I can say 
without reservation that the program is a success, fulfills a 
critical need, and has made great strides in advancing the 
science and engineering related to earthquakes.
    For example, the NEHRP development of a technically complex 
retrofit standard for existing buildings has reduced the cost 
of implementing California's 30-year hospital retrofit program 
by billions of dollars. The money is saved by the buildings 
that don't need to be retrofit and the amount of retrofit that 
needs to be done. It is a huge, huge contribution.
    The nation continues to be significantly better prepared to 
deal with the impact of strong earthquakes, and the program 
needs to continue pursuing all of its activities.
    Unfortunately, the program has not yet accomplished all 
that was envisioned due to chronic underfunding of the four 
NEHRP agencies. The program has also not been reauthorized 
since 2004, and annual appropriations equal less than a third 
of the needed $306.5 million annually recommended by the 
National Research Council. Together, the lack of sufficient 
funding and reauthorization have weakened the program's overall 
effectiveness. This comes at a time when the nation's 
earthquake risk continues to grow due to the population growth, 
urban development, and deteriorating conditions of the built 
environment.
    What do you need to do? We need to provide more funding. 
Since the last reauthorization, the focus of the earthquake 
engineering has broadened from concentrating on design and 
construction of individual buildings and infrastructure to also 
include an assessment of what is needed to make communities 
more resilient; that is, give them the ability to rapidly 
recover from severe seismic shocks. This broadens the focus and 
the challenges that NEHRP faces, and it needs to expand its 
research programs in all areas.
    Congress needs to signal their support and broaden NEHRP to 
address community resilience and provide sufficient additional 
authorization for funding in the following four areas.
    First, identify the existing gaps in seismic safety and 
community resilience through a nationwide risk assessment. A 
fundamental assessment of the nation's earthquake risk 
reduction will refine the direction the program is going, 
stimulate collaborative efforts between the agencies, establish 
the needed funding levels, and the need for additional 
statutory responsibilities. This is important after 40 years to 
really understand where we are today.
    Second, develop community-based seismic hazard maps to find 
potential for strong shaking, faulting, landslides, and 
liquefaction on a block by block community scale. These are 
micro maps that we need. These maps are needed immediately, 
will require significant new scientific research, and are best 
developed at a national level by USGS to assure consistency and 
use of latest scientific findings. We have to have this block 
by block information to overlay with all the other information 
communities have so they can understand what their needs are 
for community resilience.
    Third, complete the Advanced National Seismic System 
Monitoring Network for recording earthquakes and issuing early 
warnings throughout the nation. All earthquake professions use 
information derived from the seismic monitoring, and the 
emergency management community will eventually use early 
warning to save lives, reduce damage, economic disruption and 
business downtime, and to reduce psychological trauma.
    Monitoring provides information that we all use, and it is 
extremely important. When we don't complete the ANSS program, 
we deny ourselves the opportunity to learn from the earthquakes 
as they occur. Earthquake warning is an extremely exciting 
opportunity. It comes with the ability to gather all this 
information that we need from earthquakes. It needs to be 
completed, and not in 20 years.
    Development of a new generation of seismic standards for 
new and existing construction of buildings and lifeline 
infrastructure systems is the fourth key aspect. FEMA initiated 
the development of a functional recovery-based design and 
planning code from within a reauthorized NEHRP. It should be 
based on the work of a committee of experts who will set the 
appropriate hazard levels and performance goals for all 
buildings and lifeline infrastructure systems consistent with 
the Community Resilience Planning Guide for Buildings and 
Infrastructure Systems published by NIST in May of 2016. A 
rating system for easily identifying and publishing the 
anticipated seismic performance of individual buildings should 
also be developed and implemented.
    It is a new generation code that we need, and it takes a 
fresh start to get there. Fortunately, the current bipartisan 
Senate bill, S. 1768, the National Earthquake Hazards Reduction 
Program Reauthorization Act, includes these critical additions 
to NEHRP.
    Thank you so much for the opportunity to share my views 
with the Committee from the trenches, if you will, down where 
the people are, where the buildings are. Regarding NEHRP, I 
urge Congress to move quickly to reauthorize this critical 
program with these outlined improvements, and I am happy to 
answer any questions that you have.
    [The prepared statement of Mr. Poland follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Rohrabacher. Thank you very much, Mr. Poland.
    Now, Mr. Arba, you are recognized.

                  TESTIMONY OF MR. RYAN ARBA,

         BRANCH CHIEF, EARTHQUAKE AND TSUNAMI PROGRAM,

       CALIFORNIA GOVERNOR'S OFFICE OF EMERGENCY SERVICES

    Mr. Arba. Thank you, and good afternoon, Committee Members. 
I am Ryan Arba, the Branch Chief for the California Governor's 
Office Emergency Services Earthquake and Tsunami Program. Thank 
you for the opportunity to testify today.
    California is vulnerable to a catastrophic disaster within 
the lifetimes of most residents, and earthquakes is one of 
those main threats. In fact, California holds 77 percent of the 
annualized earthquake risk, and that is estimated at over $3 
billion a year in risk over a 30-year period. And in more than 
70 percent of the states, 40 million people reside within 30 
miles of a known damaging fault.
    We have kept some statistics of the earthquake impact since 
1950 and found that there have been over 200 deaths related to 
earthquakes, 19,000 injuries, and over $8 billion in Cal OES 
disaster costs with FEMA, of course.
    So CAL OES' responsibility includes leading California's 
efforts to prepare, mitigate, respond, and recover from 
earthquakes, but we can't do it alone. The program relies on 
non-profit, local, state, and Federal partners such as the 
Federal Emergency Management Agency and the U.S. Geological 
Survey in order to meet this mission.
    Today there are several programs I would like to highlight 
that are supported in part by the NEHRP to the program 
administered by FEMA.
    The first is the annual ShakeOut event. It is most commonly 
known as the one-minute drill to practice drop, cover, and hold 
on, but also includes other opportunities to practice full-
scale disaster preparedness exercises and other preparedness 
activities. It is one of our most leveraged activities. In 
fact, we have over 10 million residents that are registered to 
participate in this annual event every year, and the program 
has expanded to include 52 million participants worldwide. In 
fact, it has been copied in over 60 countries.
    Another thing CAL OES does is we have three seismic 
catastrophic plans focused on the Cascadia Subduction Zone, 
which covers the northern three counties of California and goes 
up through Oregon and Washington. We also have catastrophic 
earthquake plans for the Bay Area and Southern California.
    The work done through NEHRP to develop risk assessments for 
the state, done by our partners at the U.S. Geological Survey, 
as well as the California Geological Survey, are supported 
through NEHRP, and it is that critical component of knowing 
what the risk is which allows our emergency managers to prepare 
for that eventual day when the earthquake strikes and we need 
to respond immediately.
    Most recently, the Haywired scenario was released, which 
was a hypothetical magnitude 7.0 in the Bay Area on the Hayward 
Fault at approximately 4:20 in the afternoon. The information 
that is being drawn from this scenario helps emergency managers 
not only look at the impact to human life and basic 
infrastructure, but also look at many of our intertwined 
infrastructure facilities such as utilities, and also takes a 
look at the impact it would have on Silicon Valley, which not 
only has a great impact in the Bay Area but also the world.
    Finally, California is investing heavily in earthquake 
early warning, a topic that I have heard mentioned previously 
today, which can provide seconds to tens of seconds of advanced 
warning. In particular, the NEHRP program, through FEMA, were 
funding some research in order to come up with a common tone 
and alert message so we can ensure that when those earthquake 
early warning alerts come out, that people are taking the 
appropriate protective actions to reduce our risk in the state.
    So reauthorizing NEHRP is critical to ensure that 
California and the nation are ready for the next damaging 
earthquake, and I urge the Committee to consider the following 
recommendations.
    First, reauthorize NEHRP with an emphasis on implementation 
by state emergency management agencies. One way to increase 
that would be through state emergency management representation 
on the NEHRP Advisory Committee on Earthquake Hazard Reduction.
    Also, I would urge the Committee to consider expanding the 
research category known as applied research, which would allow 
emergency management agencies and social scientists to evaluate 
the effectiveness of protective action campaigns, for example, 
and adjust as necessary over time.
    So, in conclusion, California is at great risk for a large 
damaging earthquake likely to impact a large percentage of our 
population, and NEHRP is a critical component of California's 
earthquake mitigation strategy.
    Thank you again for the opportunity to testify.
    [The prepared statement of Mr. Arba follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Rohrabacher. Thank you very much for your testimony, 
and thank you for the testimony of all of our witnesses.
    I will assume the first responsibility of having five 
minutes to ask you some questions and have a little dialogue 
here.
    Mr. McNerney. Mr. Chairman, may I ask a question first?
    Mr. Rohrabacher. Yes.
    Mr. McNerney. Are we expecting more than one round of 
questions?
    Mr. Rohrabacher. You know what? If we have time, we will do 
exactly that. We do have to be out of here at four o'clock? So 
we have an hour, and we will use that time, if you so choose.
    It is my time, but my time is running out now.
    [Laughter.]
    Mr. Rohrabacher. Listen, I want to get a little better 
understanding on the record here of the type of threat, of the 
magnitude of the threat that ordinary people in our area and 
our state are facing.
    I noted that the statistics were that if there is a 6.7 
earthquake, there is a 99 percent chance of having one of these 
in the next 30 years. What is a 6.7 earthquake? When San 
Francisco was leveled, what magnitude earthquake was that, et 
cetera? Does anyone want to tell me? Go ahead.
    Dr. Hickman. I will start with that. So, the 6.7 earthquake 
is the equivalent magnitude to the Northridge earthquake which 
occurred in the L.A. Basin in 1994 and caused a great deal of 
damage, tens of billions of dollars of damage. The reason that 
the 6.7 threshold is used is because that represents the kind 
of damage done by a Northridge-type earthquake, either in the 
L.A. Basin or in San Francisco.
    Mr. Rohrabacher. All right. And what about it says also 
that we have almost a 50/50 chance to have a 7.5 earthquake. 
How much greater is 7.5 than 6.7?
    Dr. Hickman. It is a lot greater, of course. It is greater 
in terms of ground motions and damage, and also in terms of 
extent, because a large earthquake like that essentially unzips 
a longer piece of the fault. So the more fault you unzip, 
essentially, in an earthquake, the more area is impacted.
    Mr. Rohrabacher. Let me ask you something specific on that. 
We know that there was some freeway damage when we had the 
Northridge earthquake. I remember that very well. But for a 7.5 
earthquake, which is a 50/50 chance, or so we have been told, 
would the freeways remain operative? Would our water systems 
remain operative? Would our airports remain operative? And how 
about the electric system? Would those fundamentals for our 
society to function, would they be taken out of service by 
this?
    Dr. Hickman. It may be a question for someone else on the 
panel?
    Mr. Rohrabacher. Mr. Poland has an answer to that. Go right 
ahead.
    Mr. Poland. Let me speak generally about that. A magnitude 
6.7 earthquake, like the Northridge earthquake, causes a 
significant amount of damage. It will not cause a lot of 
building collapses, even with the most vulnerable kinds of 
construction that we have. It causes a considerable amount of 
disruption depending on the area that it is in. A community may 
be able to recover fairly well depending on if they have all 
the resources that they need.
    Mr. Rohrabacher. What about the 7.5?
    Mr. Poland. The 7.5 earthquake is a different animal. It is 
extremely large. It is at the level that we are designing 
buildings and transportation systems for. It is not the largest 
that we expect, but it is at the level that we are designing 
for. Right now, our building codes are basically designing the 
buildings and systems to be safe. That means that people are 
going to be able to be safe if they are inside and get out and 
be out until the buildings are repaired.
    Now, that takes care of the buildings that have been built 
since about 1980 or 1985. Buildings that were built before 1980 
or 1985, about 50 percent of them are not going to be usable. 
They are probably going to need to be replaced. Ten to 15 
percent are going to collapse and kill people. This is at 
magnitude 7.5. All the research that we do and all the work 
that we do helps us understand how to fix that problem, but the 
problem sits with the existing buildings and infrastructure 
systems, and money is needed to rebuild those things.
    Mr. Rohrabacher. Let me go down the list. Will the freeways 
stay up?
    Mr. Poland. The freeways in California will likely stay up 
because since 1971 we have been working on our freeways.
    Mr. Rohrabacher. Okay. What about the electric system?
    Mr. Poland. Depending on the electric provider, the 
electric providers have been working on that. I can't speak 
expertly about that.
    Mr. Rohrabacher. What about water systems?
    Mr. Poland. Water systems are highly vulnerable because 
they are dispersed across a large area. They cross liquefaction 
areas, they cross fault zones, they cross landslide zones, and 
all those things have really not been taken into account in the 
design.
    Mr. Rohrabacher. We get the message. How about the 
airports?
    Airports, it depends on where they are. It depends on 
whether they are sitting on landfill and they are going to be 
subject to liquefaction or not.
    Mr. Rohrabacher. All right. Well, a 7.5, that is 50/50. The 
next 30 years we have a 50/50 chance of that magnitude of an 
earthquake. What is the possibility that we might have 
something even more damaging than that, even greater than that?
    Mr. Poland. The way structural engineers talk about this--
and this is one of the issues we have about getting everybody 
to collaborate, because we need to talk the same language. The 
community resilience work will give us that. But structural 
engineers design their buildings with basically a 500-year 
return earthquake, return event, and a 2,500-year event is the 
larger event that we are expecting, and it can be up to 50 
percent stronger. As was said here, it covers a larger area.
    Mr. Rohrabacher. Am I taking too much time? Yes, we will 
have another round.
    [Laughter.]
    Mr. Rohrabacher. Mr. Takano?
    Mr. Takano. Thank you, Mr. Chairman.
    I want to spend a little time on building codes.
    Mr. Poland and Dr. McCabe, the National Institute of 
Building Sciences recently released its 2017 interim report 
which found that for every $1 spent on hazard mitigation, the 
nation saves $6 in disaster costs. What impact should this 
report's finding have on earthquake mitigation investments?
    Dr. McCabe. I think the answer is that NEHRP needs to be 
reauthorized, very clearly, and that we need to continue the 
work. Having buildings and infrastructure that perform well and 
don't require significant clean-up and rebuilding is central to 
keeping people in their homes, keeping the economy functioning, 
and minimizing disruption. The earlier study by NIBS, the 
number was about $4. So the numbers are self-explanatory. 
Investing in mitigation pays off. If you invest in improving 
your building performance for an earthquake if you are in areas 
where high winds may be expected, it will likely do better with 
that. A water system that is improved in terms of its 
earthquake performance likely will be more reliable just in 
normal service.
    So the investments pay off over time, and in an area in 
Washington, DC. where there are significant issues with the 
water supply, as in other areas of the country where there are 
older systems, these newer systems perform substantially 
better. So investing is an important tactic in keeping the 
economic health of the country and to avoid having significant 
disruptions that cause resilience problems.
    Mr. Takano. Thank you so much for that answer. And we are 
talking specifically about building codes.
    Dr. McCabe. Yes.
    Mr. Takano. We are talking about examining building codes 
going forward --
    Dr. McCabe. Yes.
    Mr. Takano.--so that all future construction conforms to 
adequate building codes. And to look at retrofitting existing 
buildings, or rebuilding them completely.
    Dr. McCabe. Yes.
    Mr. Takano. Mr. Poland, do you want to respond?
    Mr. Poland. I would like to add to what Dr. McCabe said 
with regard to existing buildings. We don't need all of the 
buildings in the built environment to be able to be used 
immediately after an earthquake. It is not necessary. There are 
certain types of buildings that we need within a few hours--
hospitals, police stations. Those sorts of things have to be 
available to manage the response and take care of the injured.
    Another set of buildings where people live in their 
neighborhoods, those need to come back to life, but we have two 
or three weeks to get that to happen. We have time to do some 
repair work. The basic economic engine of a community and its 
business environment and all of that, there is more time 
available to do that. We have to get the workforce taken care 
of first.
    The reason I say that is because when we look into the 
existing building environment, we can design and retrofit those 
buildings to different levels, and this is what performance-
based engineering allows us to do. This is what setting the 
performance goals that the community resilience guide from this 
talks about. When we go about doing that, the new generation of 
code will recognize what needs to be done so our communities 
can take the resources that they have and apply them to the 
areas that are most needed as they plan their recovery process.
    Mr. Takano. I get what you are saying about sort of 
triaging --
    Mr. Poland. Yes.
    Mr. Takano.--prioritizing what buildings we must make sure 
are resilient. What about multi-family or dense residential 
buildings? I understand that in many parts of California there 
is a social justice concern about poorer people, lower-income 
people occupying buildings that may be less earthquake 
resilient. What thoughts do you have, either of you, on this 
topic?
    Mr. Poland. Well, let me just say first, and then anybody 
can talk about that, in my mind the key issue is to be able to 
maintain your workforce. This is something that was very 
important in San Francisco as I worked on their program. You 
need people to stay in the city, to be able to get back in 
their homes and get back to their life so they can go back to 
work. If they don't, they leave. And if they go someplace else, 
you can't restore your economy. So that is the key aspect.
    Now, when you go to recognizing where the key 
vulnerabilities are, you are going to find that the folks that 
are economically disadvantaged, the folks that you are talking 
about, are the ones that are living in the most dangerous 
buildings, and they have the least ability to help pay for 
that. So the issue is how do we make sure--and we need those 
people for the workforce. How do we make sure that the retrofit 
work can be done and be paid for? Because as part of the 
community obligation to protect their workforce, that has to be 
taken care of.
    Mr. Takano. My time is running out. It has elapsed, the 
Chairman has kindly showed me.
    [Laughter.]
    Mr. Takano. I have no time to explore this further, so I 
will yield to my colleague, yield back to the Chairman.
    Mr. Rohrabacher. Thank you.
    Mr. McNerney?
    Mr. McNerney. I thank the Chairman, and I thank the panel. 
I think your testimony has been very informative so far.
    As we have seen with recent natural hazards, it is clearly 
imperative for lifelines such as utility lines, water systems, 
transportation systems, to withstand hazards and to be back 
online as soon as possible, and that strong standards are a 
very important part of making sure that that is the case.
    So my question is this for Mr. Poland, if you can answer 
it: Are there any codes that apply to underground water 
conveyance tunnels?
    Mr. Poland. When you think about codes, most of us often 
think about building codes. It is a building department. It is 
a set of rules that you have to go by to get your permit. When 
you go to the infrastructure systems and water systems, there 
is no building department. There are various agencies that 
regulate the design and construction, but most of the time 
water infrastructure providers set their own standards for what 
they are going to design to be based on what they perceive is 
necessary for their community, what they believe they can 
afford to do within the rate structures that they have to live 
with, and what their community is saying is important to them.
    What we have learned--and this is published--is that our 
infrastructure systems are designed to a very uneven level of 
performance and safety. In fact, they are mostly designed for 
day-to-day operations, for normal conditions, with very little 
regard to the high-consequence, low-probability events like 
earthquakes.
    Mr. McNerney. Well, what I hear you saying is that there 
really aren't any codes, standard codes really, that are used 
in those.
    Mr. Poland. Correct.
    Mr. McNerney. So would it be safe to say that the large 
water conveyance tunnel plan, the Governor's plan, is not 
resting on sound geoscience to prevent significant risk?
    Mr. Poland. No, I wouldn't say that. One of the nice things 
is, I believe, when you have a project like that, the kind of 
effort that goes into it in recognition of what the hazards 
are, that special studies are done, and I assume that these 
have been done and that the protection is going to be in place. 
I would not draw that conclusion from what I just said.
    Most water districts in communities are small. They serve a 
small area. They are localized, and they are subject to the 
kind of discussion that I just made.
    Mr. McNerney. Thank you. That is a question that is very 
important to me in my district, how safe are those plans, and 
recent studies I have heard and testimony that was taking place 
in San Joaquin County showed that there wasn't a set of 
standards that would be reliable in terms of designing large 
tunnels for big advanced projects that cross a large region of 
space.
    Mr. Poland. And I don't want to disagree with that. I don't 
want you to interpret my comments as disagreeing. Those 
standards are particular to that particular type of 
construction. I am not familiar with those at all. But I would 
like to believe that because of the dependence on that water by 
people downstream, by people in Southern California and the 
Central Valley, that we are not going to be able to overlook 
the consequences of a major earthquake. That has to be built 
into the system.
    Mr. McNerney. Thank you.
    The USGS produces and updates, Mr. Poland, national seismic 
hazard maps. How would developing community seismic standard 
maps help communities across the nation prepare for earthquake 
risk?
    Mr. Poland. What we have now from USGS, which is extremely 
helpful, is an ability for every location within a city to 
determine what the strong motion is, and they can produce maps 
for us that show us the contours across a city. That is great 
for the shaking level, how hard it shakes.
    We don't have those kinds of maps universally for areas 
that are subject to liquefaction, and when you talk about 
utility systems, and your utility system is brought out across 
your whole community, you have to know where your liquefaction 
is going to occur if you want to understand what is going to 
happen to your utility systems.
    The same thing with faulting and landsliding. There are 
targeted areas, very dense urban areas where some of this 
information is available, but it really needs to be available 
for any community that wants to understand their resilience.
    Mr. McNerney. Has my time expired? Oh, another minute? Oh, 
boy, I am going to use it.
    Mr. Poland, you mentioned that there is chronic 
underfunding of developing standards and for the United States. 
How do we compare, in terms of having standards, to other 
countries around the world? I mean, are we behind? Are we 
ahead? Are we in the middle of the pack? How do we stand?
    Mr. Poland. It depends on which areas. In Third World 
countries, they don't have any standards. In countries 
comparable to ours, there are a wide variety of standards. I 
have never done a study myself to compare those. I know there 
are international forums where we get together and we talk 
about each other's standards.
    I think the most important part is it is not how we compare 
to our neighbors. It really depends on how is our built 
environment going to perform, and is it going to meet our 
expectations or is it going to surprise us and we are going to 
be caught with a built environment that is not going to serve 
us very well?
    Mr. McNerney. Thank you, Mr. Chairman. I will yield back.
    Mr. Rohrabacher. How do we compare in terms of the danger 
that we face as compared to other countries? I mean, I remember 
reading accounts of St. Sebastian in Spain, that they had a 
huge earthquake there. Is Europe still--where do they compare 
to us? Where do we compare to other countries? Japan seems to 
be going through a number of earthquakes. So the risk to our 
country compared to other countries, where would you put it?
    Dr. McCabe. It depends on where you are. If you are along 
the Ring of Fire, Japan and New Zealand in particular have 
significant risk, all the way up the West Coast of the 
Americas. That is all part of that Pacific plate juncture. 
Interestingly, in Chile, their building codes are based on U.S. 
building codes in large part, and they have had significant 
strong shaking down there, and their buildings have done quite 
well. The latest one was in 2010. So we have anecdotal 
information from actual application of our building codes, but 
it is a significant risk.
    Mr. Rohrabacher. So this Ring of Fire that we are talking 
about, does that mean that all the countries that are around 
that edge of the Pacific are at the maximum risk in the world 
of having quakes?
    Dr. McCabe. I will defer to my seismology colleague here.
    Dr. Hickman. The Ring of Fire countries obviously have a 
lot of risk.
    Mr. Rohrabacher. You have to talk into your mic, please.
    Dr. Hickman. The Ring of Fire countries obviously have a 
lot of risk, and we share information with those countries. For 
example, we learn about how to model or understand reductions 
in earthquake damage by looking at Chile or Japan. However, if 
you look at other countries, like India, for example, and also 
Iran and Iraq, Italy, they face a great deal of hazard from 
smaller costs, not as dramatic as the Ring of Fire.
    But at the end of the day, a lot of countries suffer 
because their building codes are not as good as ours, and their 
enforcement of their building codes, if they have them, are not 
as good as ours, and that was mentioned earlier. The same 
earthquake that makes for good building codes like ours will do 
a lot less damage than in countries without those building 
codes. So the risk is spread around the country.
    Mr. Rohrabacher. I understand. That is a good point, and it 
has been made today, and we hear that. We really need to make 
sure that--you can't stop the earthquake, but we can be 
prepared for it. Thank you. I am a Boy Scout. ``Be Prepared'' 
is the motto of the Boy Scouts, right?
    But let me ask you this. In terms of actually understanding 
the threat, I would like to ask you a little bit about 
prediction and warnings. Does it make sense for us to have 
sensors in space, satellite sensors? For example, this 
Committee oversees that type of activity, sensors that might be 
able to determine pressure building or smaller movements of the 
earth. Does it make sense for us to be doing that?
    Dr. Hickman. Monitoring from space does play an extremely 
important role in keeping track of the deformation of the 
earth; for example, radar images taken from satellites. That is 
very important for mapping out hazards, where the faults are 
being loaded most rapidly when an earthquake occurs, how does 
the crust respond. But we really cannot do short-term 
prediction from this. We can't do short-term prediction at all. 
We thought it was easier before. And by ``short-term'' I mean 
predicting that there is going to be an earthquake of a 
particular size in a particular place tomorrow or the week 
after.
    We used to be more optimistic about that. We now know that 
earthquakes are much more complicated than that. Earthquakes 
basically start small. Some of them decide to grow big, but 
most of them stay small. The ones that become big, they start 
very deep. So it is very hard to see the signals associated 
with the initiation of an earthquake close enough to tell 
whether you could even predict an earthquake at all at that 
level.
    Mr. Rohrabacher. We end up predicting an earthquake to say 
within the next five days there will be an earthquake, so they 
come back on the 6th day, and then you have the earthquake on 
the 10th day. I think we are facing that kind of thing. So what 
our efforts should be, instead of providing warning, we should 
focus on what comes next to make sure that, number one, 
beforehand we are prepared; number two, what do we do after the 
earthquake has come to mitigate that.
    Dr. Hickman. This is exactly where early warning comes in. 
Early warning is not early warning for the earthquake. It is 
early warning of shaking from an earthquake that has already 
started. So once the earthquake starts, you don't have to 
predict it anymore. You just need to have sensors very close to 
the starting point. If you can pick that vibration up, you can 
see how big the earthquake was, how much shaking there is going 
to be, and you broadcast that out as fast as you can.
    The emphasis is shifting, of course, away from earthquake 
prediction, because that is not going to save lives and 
property. But warning about shaking from an earthquake that 
already has started will, as well as increasing the strength of 
the built environment.
    Mr. Rohrabacher. All right. My time is up again.
    Mr. Takano?
    Mr. Takano. Well, Mr. Chairman, I am confident we are going 
to get through all these questions because we are taking turns 
and playing nice.
    Mr. Poland, I just want to continue my question where I 
left off with what you were saying. It was interesting to me 
what you were saying, that we have to focus in the aftermath of 
a major earthquake on preserving our workforce because that is 
going to be key to rebuilding, and a large part of our 
workforce is going to be coming from the lower-income folks who 
are going to do the rebuilding, and a lot of these low-income 
people live in our most vulnerable areas.
    I recall from this latest earthquake in Mexico City that we 
saw the tall buildings actually did okay, but it was these mid-
size buildings that didn't do so well. Can you maybe describe 
what the risks are in these low-income areas and maybe paint 
that picture more fully for us?
    Mr. Poland. I think the experience that we saw in Mexico 
City had more to do with the time that the buildings were built 
and the quality of the construction that went into building the 
buildings. It didn't really have as much to do with the height 
or not, so just to say that.
    We do know that there are classes of buildings that are 
extremely vulnerable, unreinforced masonry buildings, the wood-
frame buildings with soffer stories. We call them the soffer 
story buildings. There is an opening at the bottom, so there is 
a real weakness down there, and the older concrete buildings 
that don't have sheer walls.
    When you walked into this building, you probably noticed 
the diagonal braces on this building. Those braces were put in 
there to supplement the strength of this building because it 
was an older concrete building that didn't have enough strength 
to be able to resist the lateral loads. So they put braces in 
to hold the building up so it would be able to perform. That is 
good.
    The point that I want to make is that the older buildings 
that we have, because they are older, don't have the features, 
don't have the same quality, and so they tend to be the ones 
that tend to be more affordable for folks to be able to live 
in, and those are the buildings that are the most vulnerable 
buildings.
    Now, in order to correct that, and where the NEHRP program 
comes in, is there is a huge amount of research and activity 
that needs to go into understanding about just how much we need 
to fix the buildings. An engineer given a task will solve it. I 
might spend three times as much money as I need to, but I am 
not sure because I don't have all the information that I need. 
So we do the research, we figure out the programs, we do the 
testing, and I can identify through analysis what actually 
needs to be done. The less I have to spend on each building, 
when a community looks at this, the more buildings we can fix.
    Mr. Takano. Mr. Poland, so we don't want to over-spend, 
right? I wish we had an economist who was also here with us, 
because part of this problem we have, this conundrum, is the 
cost of retrofitting, or the cost of just rebuilding if we 
think that retrofitting is not enough.
    Was it you, Dr. McCabe, who was talking about a block by 
block analysis, or was that somebody else? You were talking 
about block by block, right? That seems awfully tedious, but is 
that something that we can do, and is that something that is 
worth the money? Tell me more about that.
    Mr. Poland. Well, I think it is worth the money. We can't 
go block by block and do the kind of detailed evaluation by the 
design professionals that I am accustomed to doing for my 
projects. You are right, that is way too much. But let's start 
with the ground shaking and liquefaction potential.
    As the science develops and the understanding of what is 
going on underneath the ground--I am talking like a structural 
engineer now, what is going on down there, what the 
vulnerabilities are--that information can be extrapolated, and 
we can get much better information block by block if the 
science is improved so that we can understand. USGS needs to do 
the research to sort that out.
    As NIST and Steve McCabe's group does their research and 
looks at building performance, we can recognize classes of 
buildings. Right now we categorize 15 different classes of 
buildings, and our procedures are all built around those 
things. As we understand how those buildings perform, then all 
we have to do is identify in a community what class that 
building is, and it gives us a good measure about how it is 
going to perform, so then we can understand where the 
mitigation needs to be done.
    So over on the science and research development side 
providing new information to allow us to extrapolate to our 
inventories of buildings so that we can officially figure out 
what needs to be done.
    Mr. Takano. Do you have any idea whether the current 
compromise in the Senate legislation is including resources for 
this kind of research or not? How much more would it cost us to 
do this?
    Mr. Poland. The National Research Council in 2011, at the 
request of NIST, did a study about what we needed to spend in 
the NEHRP program over a 20-year period. I mentioned this in my 
testimony. They came back and said we need to spend $306 
million a year for 20 years, and they gave us 18 different line 
items of things we needed to do and a whole book full of 
explanation about what needed to be done in order to achieve 
what I am talking about.
    So my answer to you is we need $300 million. I believe the 
Senate version has $80 million in it, or $90 million.
    Mr. Takano. My time is up. It is not just by coincidence 
that we are talking about increased need for money. The 
Chairman, I just put that in front of him. It just happened to 
be at the same time.
    I yield back.
    Mr. Rohrabacher. Mr. McNerney.
    Mr. McNerney. I thank the Chairman again.
    I am going to follow up on your question.
    Mr. Poland, on the block by block analysis, wouldn't it 
tend to be, getting in its own way--I mean, if there is so much 
data, if there was a big hazard, wouldn't that kind of 
information be just so massive and so inaccessible that it 
wouldn't be useful; in fact, maybe even cause problems? Do you 
envision something like that as well?
    Mr. Poland. No, I don't. Let me give you an example. In San 
Francisco--you probably heard about this--they put in place a 
program to retrofit their soffer story buildings. The 
recommendation was made, because San Francisco is bound on 
three sides by water, that if they didn't do something to keep 
their people in town, to shelter in place, if you will, that 
they would leave, and they would never get them back. The 
recommendation was that 95 percent of the people need to 
shelter in place.
    They came back and did some studies and found out that we 
were at about 50 percent, and we needed to get to 95 percent. 
We could get 25 percent more people sheltering in place if we 
strengthened the soffer story buildings. So that program was 
put in place.
    Now, as we started to work through the details of was it 
really going to accomplish what it needed to accomplish, it 
became really important to understand how the shaking was going 
to vary across the city, where the liquefaction was going to 
occur, where there was landslides, because a building in a 
landslide area, there is really not much we can do to it 
economically to make it shelter-in-place capable. If it is in a 
liquefaction area, it is the same thing.
    So having the block by block information to answer a 
specific question--how many of those 6,500 buildings are in 
areas that we can't fix, how many can we fix--is what I am 
talking about that we need the information block by block.
    Mr. McNerney. All right. Thank you.
    Dr. McCabe, you mentioned that you want to prevent a 
building from collapsing, an important part of the standard, 
but also a building having survivability so that it can be 
reoccupied and reused quickly. Where are we with regard to 
those kinds of standards that allow a building to be reused 
after an event?
    Dr. McCabe. Well, with an existing building that has been 
built to an older standard, a 1950s-era standard, the level of 
performance is going to be less than a newer building, right? 
It is a function of the age of the building, the type of the 
building, the level of the shaking certainly, the ground that 
it is on. A new building properly designed and competently done 
is going to probably do pretty well, except under great 
earthquake-level shaking.
    Mr. McNerney. So, for example, that new building they are 
putting up in San Francisco, it is taller than anything else by 
quite a bit, you would think that would be not only survivable 
but would survive intact and allow people to use it the next 
day?
    Dr. McCabe. I wouldn't say that.
    Mr. McNerney. Well, the next day is a little bit --
    Dr. McCabe. Yes. I mean, what the conversation is evolving 
to is not necessarily a life safety, get out of the building, 
pat yourself on the back, and you may have to demolish the 
building question, which is what it was maybe when NEHRP was 
enacted. We have gotten things refined. We have gotten things 
improved. The ground motion information, the hazard modeling is 
improved. We have done a significant improvement in our ability 
to design new buildings.
    What we are doing, though, is we are evolving the 
conversation. Chris Poland is talking about shelter in place, 
keeping people in their communities, keeping the communities 
able to continue to function. That is an essential part of this 
whole conversation. We have met an initial goal here, and we 
are moving beyond that, and we have done this on our own 
because it is an important thing to do. We want to keep 
communities viable. We may not be able to get a building 
reoccupied immediately, a hospital, a fire station, something 
like that certainly. There may be more time required. But as we 
get better, we ought to be able to shorten those times as well. 
That is where this immediate occupancy or the functional 
recovery standard that is being talked about in California 
comes in.
    Mr. McNerney. So what I am hearing is pointing to a vision 
where all these agencies working together can make a community 
livable after an event.
    Dr. McCabe. Yes. We are stepping the game up, and it is due 
to the conversations about resilience, about knowing the ground 
motion hazards better, about recognizing that buildings are not 
stovepipes by themselves but they are connected via lifelines--
electrical, water, waste water. All of these things are 
necessary to keep a community alive. So we have a broader 
vision now, which is pretty exciting.
    Mr. McNerney. Okay. I yield back, Mr. Chairman.
    Mr. Rohrabacher. All right. We have time for one more 
round, if the witnesses have time for one more round for us.
    Let me just note that I think one of the primary 
responsibilities of government, especially the Federal 
Government in this case, is to make sure that we are prepared 
for major threats to the overall safety and well-being of the 
country and the American people, and that includes what we are 
discussing today, and thank you for your input on that, and 
that is understanding what threat we face and how should we 
approach that threat about earthquakes.
    There is also a threat that I am very concerned with about 
asteroids, that an asteroid could appear. No scientist ever 
told me that, oh, no, that will never happen, or it is a 
thousand years away. Not one scientist I have ever talked to 
would be surprised if we didn't find one five years away 
tomorrow.
    We have people who are warning us about our antibiotics 
that are being faced with new challenges at the bacterial 
level.
    We have EMP, which is some solar activity that could happen 
and fry our electric system.
    All of these are challenges that I think are important for 
the Federal Government to, number one, look at and see how much 
danger there is and try to at least see what we can do, if 
nothing else, to mitigate the damage that will be done if we 
can't stop it altogether. I am hoping that we would develop a 
system that could actually take an asteroid and nudge it off of 
a path far enough out so that it wouldn't hit the earth. But 
then again, we have to know that that might not happen.
    With that said, I want to thank all of you for giving us 
some suggestions today. But it comes down to, in all of these 
areas, how much money are you going to spend. Mr. Poland was 
very clear in his testimony: We have to spend more money. Okay. 
Let me just note that we are spending already a trillion 
dollars a year more than we are taking in, already. That is 
without doing these things, without coming to grips in a big 
way.
    So what we have when we discuss these issues of the safety 
of large chunks of our population, we have to understand that 
if we are serious about that, we have to figure out where the 
money will come from and what programs will have priority. Does 
this have priority over other types of programs? I mean, we 
just voted for a farm program. I voted against it, but I don't 
know what my colleagues did. We had an amendment that said we 
are going to spend so many millions of dollars promoting beer 
and wine, America's beer and wine.
    Now, when you are spending more than a trillion dollars a 
year more than you are taking in, that just means we are going 
to have to start making priorities in terms of what we are 
going to spend, and I assume by your testimony today is what 
you are telling us is that there is a serious threat. That is 
why I came along in the beginning saying how serious is this 
threat? There is a serious threat that large numbers of people 
in our population could be in great danger, and if we focus on 
this it will cost a certain amount of money, but we can save 
lives afterward.
    With that said, I would hope that the next time--I am not 
going to ask you guys or any of our witnesses to say what areas 
we should cut. But let me just suggest that that bit of 
information as comparing one program to another will help us a 
lot more than simply telling us what the threat is.
    Does anyone have any suggestion of how much money we need 
to spend now? Mr. Poland suggested $400 million. I forget the 
exact amount.
    Mr. Poland. It was $300 million a year.
    Mr. Rohrabacher. Two hundred million dollars a year.
    Mr. Poland. Three hundred million.
    Mr. Rohrabacher. Three hundred million dollars a year. And 
is there some other program that you think, a science-based 
program that you think does not measure up to that?
    Mr. Poland. Great question. You are in a whole lot better 
place to judge that than I am because you see all the programs. 
We are the experts. We see a program. We recognize that there 
are things that could be done that are not being done.
    I know in my practice, for all the thousands of buildings 
that my staff and I have evaluated and recommended 
strengthening for, very few, probably less than 20, were ever 
strengthened because it is too expensive. Why is it too 
expensive? Well, we don't know everything we could know.
    Now, if you could invest $300 million a year in the 
program, and you could create design guides and maps and GIS 
systems and tools that are necessary to activate the money that 
is available out there to do all this, none of this money is 
going for brick and mortar, none of it is going to fix 
anything. All it is doing is doing the research necessary to 
provide the refined tools to make this thing affordable and 
practical so that people go ahead and want to do it.
    And the other thing that I keep noticing is when these 
hazards occur, when these natural disasters occur and people 
haven't taken care of things because they didn't think they 
could afford it and they don't have insurance, then you guys 
are great. You come in--and I hope you do it for us when it 
happens to my community--you come in with a whole lot of money 
and you fix things, and that is great, and that is part of what 
this program is about, trying to figure out how to get the cost 
of that repair bill down, because the Federal Government is the 
last stop for repairing things.
    So it seems to me the comparison you are asking for, the 
programs to cut, I have no idea.
    Mr. Rohrabacher. Okay.
    Mr. Poland. But I think that we need to have a different 
view of what this $300 million a year is going to get us.
    Mr. Rohrabacher. Well, we do have, just as I say, lurking 
right there in the background as we are trying to make our 
decisions, a trillion dollars in debt every year more. So at 
some point that will be a huge threat to the well-being, and I 
hope we never see it, the type of financial crisis we are 
setting ourselves up for by not being able to prioritize.
    But with that said, you have made your case today, I think 
very well.
    Yes, sir, Dr. Hickman.
    Dr. Hickman. I think those are great questions. We 
obviously are not in the same position you are. But I look at 
the Haywired scenario, which is the scenario of the losses from 
a magnitude 7 earthquake on the Hayward Fault, more than $82 
billion in damage, 18,000 injuries, 800 fatalities, and then 
there is fire after that, loss of water, loss of 
telecommunications, migration of people out of the Bay Area, 
the potential devastation of an economy.
    There are some tough decisions to make, but I think we need 
to revitalize the entire NEHRP program. This is a huge problem, 
and I agree with sheltering in place. We need to look at 
infrastructure, we need to make sure the water comes in, the 
roads can come in for rescue personnel, the water can come in 
to fight fires.
    Mr. Rohrabacher. And strengthening them, as you have made 
the point, actually can make them more effective even before 
any type of earthquake were to happen.
    Just one last question about the threat itself. We see this 
volcanic activity in Hawaii. Is that a warning sign to us? Is 
that something that could indicate that there might be some 
earthquake activity here? Does the volcanic activity in some 
way relate to earthquake activity?
    Dr. Hickman. I think this is a question for me.
    [Laughter.]
    Mr. Rohrabacher. Whoever can answer that.
    Dr. Hickman. In the case of Hawaii, that is really not 
connected to the plate boundaries that cause the earthquakes. 
Hawaii is sitting on top of a hot spot coming up from the 
mantle. So it basically is being melted from below. Hawaii is 
the end of a chain of mountains that were formed by melting 
through the crust.
    Mr. Rohrabacher. Okay, so that is different.
    Dr. Hickman. All by itself, it makes little earthquakes. We 
had a 6.9 earthquake associated with eruptions in Kilauea. That 
is pretty big, but that is not really part of the same problem 
we face here in California.
    Mr. Rohrabacher. One of the things, the last thing, and 
then I will make sure my colleagues get a chance to ask 
whatever questions you have.
    I have been very concerned that we have nuclear energy 
facilities that, in an earthquake--I mean, look at what 
happened in Japan. They were told this is absolutely safe, 
there is no way you are going to have any problem with this, 
and then look at what happened in Japan.
    Just very quickly, number one, let me just note that we can 
build the next generation of nuclear power--we are capable of 
that; we haven't done it yet--that I know would be safe. But 
currently, with these light-water reactors, which I think are 
inherently dangerous, are we safe now if there is an 
earthquake? Is that a part of this threat?
    Just very quickly I will go down the line.
    Dr. McCabe. What do you mean is this part of the earthquake 
threat?
    Mr. Rohrabacher. Do you think that our current nuclear 
power plants can withstand a 7.5 earthquake and not leak 
radioactivity?
    Dr. McCabe. Well, the U.S. Nuclear Regulatory--I started 
out in the nuclear business, but I haven't been in that for 
quite a while. The U.S. Nuclear Regulatory Commission has each 
plant site do an in-depth seismology survey. So each individual 
plant is sited and is designed based on the risk that exists 
for that particular location.
    Mr. Rohrabacher. Okay. Let me ask you this: Where is San 
Onofre on the fault line here? Is it on the fault line? Is it 
down here? Okay. Well, it doesn't look that far away from a 
fault line to me.
    Dr. McCabe. If I were living in Southern California, I 
would have less concern about that because of all of the 
attention of all the engineers and all the regulators at the 
state and Federal level. I would have less concern about that 
than I would about, perhaps, other things that are out there. 
Risk is relative.
    Mr. Rohrabacher. It is. However, if that happens to go 
down, we are talking about millions of people being irradiated, 
as compared to some people who, maybe thousands of people 
losing their lives in unstructured buildings. Also, of course, 
I think that all the experts, as I say, just guaranteed the 
Japanese that there is just no possibility ever. What I think 
is very damaging and just outrageous is we are still trying to 
sell light-water reactors to different countries in the world, 
and they are inherently dangerous. We have the technology 
capabilities to build safer nuclear reactors, and we should.
    But anyway, does anyone else have any comment on this?
    Mr. Poland. I just want to add to what Dr. McCabe said. I 
think that it is important not to compare buildings that were 
built without any consideration for seismic design, 
unreinforced masonry brick buildings, with a nuclear power 
plant, even if it was designed and constructed 30 years ago. It 
was given an extraordinary amount of consideration in design 
analysis by the best experts that we had because of the very 
threat that you are talking about.
    One of the things that we saw in Japan, I believe, is that 
we had a black swan event. We had an event that nobody thought 
was going to happen, or at least the consensus of the community 
was that event was not going to happen. The wave wasn't going 
to be that high, we weren't going to experience that. So to me, 
I don't think it is proper--maybe I shouldn't say that. I think 
we have to recognize that that event was something completely 
out of the ordinary expectation.
    But the main point I wanted to make was not to draw 
conclusions from very poorly built buildings and something that 
has been built deliberately in a very careful process.
    Mr. Rohrabacher. Well, they are two different threats, and 
I just have to say that I personally have been disturbed that 
we have not developed the next generation of nuclear power, 
which we know we can do, that would not leave us as vulnerable 
as the current system.
    Mr. Takano?
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Poland, this $300 billion figure that you --
    Mr. Poland. Three hundred million.
    Mr. Takano. Three hundred million.
    Mr. Poland. Million. You guys always say billion. We gulp 
to say million.
    [Laughter.]
    Mr. Takano. I was thinking $300 billion.
    Mr. Poland. Oh, no.
    Mr. Takano. So, $300 million.
    Mr. Poland. We could fix all the buildings with that kind 
of money.
    Mr. Takano. We could fix all the buildings. But that makes 
more sense, $300 million, which is not bricks and mortar but 
which is about research, which is about information. The 
picture I am getting from you is it would help us understand 
what buildings were built in a liquefaction area that would 
make little sense to invest a lot in retrofitting. But that 
information that the Federal Government would provide to the 
local planners and the building codes would say if you are 
going to build on areas of liquefaction going forward, you had 
better build to this standard or not build there, just 
discourage building there at all.
    Mr. Poland. Or accept the consequences, yes.
    Mr. Takano. Well, it also, I assume, would bring the market 
into this, because insurance companies who underwrite 
earthquake insurance would be able to use this information also 
and price their policies accordingly.
    Mr. Poland. That is right.
    Mr. Takano. So it would be government data that would also 
inform other kinds of market incentives to be able to drive 
this in the right direction.
    Mr. Vernon, you have something to say about this?
    Dr. Vernon. One other aspect of that $300 million per year, 
it also fully fills up the Advanced National Seismic System. So 
not only do you have the research component that you have 
talked about, it also gives us the seismic network monitoring 
capability that had been fully planned for. So that is another 
component of that $300 million a year.
    Mr. Takano. It is not all the block by block analysis.
    Mr. Poland. No, that is one piece of it.
    Mr. Takano. One piece of it.
    Well, this has been a very fascinating hearing. I want to 
understand, is this research, the conclusions you have drawn 
about what people would do if they couldn't shelter in place, 
is that part of the social science that needs to be done? I 
understand that there is a social science aspect to responding 
to earthquake disasters.
    Mr. Arba. That certainly sounds like an opportunity for 
that. I think a lot of the focus on the social sciences, 
especially in the current environment with the focus on 
earthquake early warning, is how to best utilize that alert. 
But that is certainly an opportunity that could be pursued.
    Mr. Takano. Go ahead, Mr. Poland.
    Mr. Poland. I would add one thing. The NIST Community 
Resilience Planning Guide, which is kind of the framework for 
this new generation of building codes and this new generation 
of thinking about how we want things to perform, starts by 
understanding what the social institutions are, and that is 
working with social scientists, and then prioritizes which of 
those social institution products and economic products are 
necessary at what time, and then how those are supported by the 
built environment. That is how the performance goals are 
developed.
    That is something we have never done before, in my mind, is 
turn to the social science community and have them help us 
understand what people need, how they are going to respond, and 
what communities need in order to efficiently recover.
    Mr. Takano. Mr. Arba, I understand that San Francisco and 
Los Angeles have undertaken major initiatives as described by 
Dr. McCabe, the ordinances they have passed, the commitment to 
look at what buildings need to be retrofitted, and there is a 
social justice element to how these ordinances were designed. I 
understand the California legislature is moving forward with 
some of its plans.
    How is it that we can make sure that this reauthorization 
works in tandem and helps leverage what California is doing, 
and how can the Federal Government be of the best assistance to 
the State of California?
    Mr. Arba. Yes. I mean, certainly as these policy issues 
advance, as part of Cal OES and working with our partners, we 
are often looking to that research in order to make the 
decisions that we have to make on these separate 
considerations. So I would just say, consistent with what was 
said earlier about continuing to make sure that among all of 
the different research topics that we have that are covered in 
the NEHRP program, that a specific emphasis is called out for 
research as mentioned.
    Dr. McCabe. I will just add that we believe that the social 
science aspects, the policy aspects, are very, very important. 
We brought on social science expertise at NIST to help in this 
process because it all has to do with accepting the risk, 
making decisions about the risk, ultimately engaging in 
programs that will make things better. This is a very 
grassroots kind of thing, but you are talking about a community 
surviving and potentially flourishing. So it is not just the 
engineering, and that is a big part of this going forward.
    Mr. Takano. So the seismic hazard maps--go ahead, Mr. 
Hickman.
    Dr. Hickman. Yes, I was going to add--maybe that is where 
you are heading with your question. Getting the more kind of 
high-resolution pictures we need for seismic hazard in urban 
areas is something that people have done in Seattle and Los 
Angeles, but we need to do more of that. So urban seismic 
hazard mapping is one way to produce a very high-resolution 
picture, not quite block by block, but close, of how the ground 
is going to shake during an earthquake using realistic models 
for how the sediments focus the energy, where the faults are, 
how the faults might break.
    So it is important to think about the science, too, because 
your liquefaction models depend upon the ground-shaking models, 
because it is ground shaking that causes liquefaction.
    So when you think about this, think about the integrated 
package that involves the engineering, but also the earth 
science that feeds into that, and the social science that 
controls how people respond. I think that is the beauty of 
NEHRP, that we all work together on these problems. We are 
already working very closely with Cal OES on earthquake early 
warning, for example. So I would just like to see this sort of 
horizontal building of these kinds of models that depend on 
solid science, really good engineering, and then the social 
science to make sure people know what to do with the 
information they have.
    Mr. Takano. Yes, I was going in that direction with the 
seismic maps, that that is going to be very useful for city 
planners, for insurance companies. More information will help. 
The market can also help guide us in the right direction as 
well.
    But I think the public needs to understand the risks and 
where the liabilities are in a community, how are we going to 
address the low-income folks who are living in the riskiest 
areas that constitute our important workforce. We are a great 
economy, depending on which statistics the fifth or sixth 
largest economy in the world, and what happens to us if we 
become disabled? And the question is how disabled? And the 
perfect word again is resilience. How do we plan for 
resilience?
    Thank you very much. I am going to yield back my time. This 
has been a fascinating hearing.
    Mr. Rohrabacher. Mr. McNerney?
    Mr. McNerney. Again, I thank the Chairman again. And again, 
I am going to follow up on Mr. Takano's question to Mr. 
Hickman.
    You were talking about models or how we can model the kind 
of resolution to be helpful in planning. How advanced are the 
models that could be used to do that? Is that an area of 
research that the $800 million would go to?
    Dr. Hickman. Absolutely, that is an area where more work is 
needed. We have very sophisticated computer models now. We are 
missing information, for example, on the structure of 
sedimentary basins beneath Seattle, beneath Los Angeles, 
beneath San Francisco. We know from Mexico City that sediments 
resonate with different earthquakes, and that has big 
implications for tall buildings and engineering.
    So we need more information to characterize the geology 
beneath the big cities that face so much risk. We need more 
information on characterizing the faults that are along them. 
How are those faults likely to break based upon their past 
history? So that means doing more of what we call paleo-
seismology, looking backward in time to see how faults broke 
over time. And we need to do more work on seismic wave 
propagation, how do the earthquake waves coming away from the 
fault change as they come up to the surface, and how are they 
modified by the soils. How does that lead to liquefaction? How 
do landslides occur?
    There are a lot of unanswered questions. So I think the 
science, the drive, a lot of important hazard and risk 
reduction products here.
    Mr. McNerney. Would you say that is more empirical science 
or more computational theoretical?
    Dr. Hickman. It is both. But we are computational. There 
are certainly super-computers churning away right now on these 
kinds of models, but we need more data to feed into those, and 
we also need more theoretical understanding.
    Mr. McNerney. Okay. Good.
    I also want to hear a little bit more about the TAs and the 
ANSS. How do you say ANSS?
    Dr. Vernon. It is the Advanced National Seismic System.
    Mr. McNerney. I mean, the TAs, are they flexible 
geographically? How does a TA work?
    Dr. Vernon. It was a project that started under the 
National Science Foundation and is now pretty much finishing 
its end of life. It is completing its deployment in Alaska now. 
What we have left behind is this Central and Eastern U.S. 
network, which is now part of the ANSS --
    Mr. McNerney. But what is a TA?
    Dr. Vernon. Transportable array. It is part of the 
EarthScope program under the National Science Foundation. It 
was an MREFC, Major Research Equipment Facility --
    Mr. McNerney. But what does it mean? Are there major 
sensors every few kilometers, or --
    Dr. Vernon. Each station was deployed for about two years. 
There were 400 deployed at a time. You would pick one up on the 
back on the West Coast and move it more to the East, and they 
just kept rolling them forward. Each station was in place for 
about two years as we moved across the country.
    Magically, right about the time in 2007 and 2008, we got 
into Oklahoma right when all the earthquakes started there, 
happening there.
    Mr. McNerney. How do they fit in with the ANSS?
    Dr. Vernon. They inform the ANSS in the sense of where the 
seismicity is. It gives you a snapshot in time. It gives you 
more information about the structure, like Steve was talking 
about, talking about how do you actually get the amplitudes 
that you might expect from certain size earthquakes. So it gave 
us a data set that we can use to inform some of these models 
and studies that we are talking about, cross reference.
    Mr. McNerney. So is the ANSS also an array? What is it?
    Dr. Vernon. No. The Advanced National Seismic System is a 
set of seismometers deployed permanently in the ground 
throughout the U.S. There are big components here in 
California. There is a Northern California Seismic Network, a 
Southern California Seismic Network. There is one in 
Washington. They are integrating them together to do these 
earthquake early warning systems. There is a big system in 
Alaska. There are ones in the Central U.S. around the New 
Madrid area.
    Mr. McNerney. Can the TA become part of the ANSS?
    Dr. Vernon. It could have been if it were left in place, 
but we lost that opportunity. That is what I was trying to say. 
When we do these large-scale programs, we should be thinking 
about the longer-term implications, how we could leverage those 
investments to make more efficient use of the dollars that we 
do spend on science.
    Mr. McNerney. All right.
    Dr. McCabe. If I can add, ultimately if you are going to 
have an engineer design a building or a lifeline system, we 
need to know what the threat is, what the seismology is. 
Particularly in the eastern two-thirds of the country, that 
data provided by the TA system is invaluable. Rare events like 
the 2011 Mineral, Virginia earthquake revealed the importance 
of having instruments, even in places where you may not expect 
earthquakes to occur with regularity. But it is important for 
us to do our job as engineers.
    Mr. McNerney. Mr. Chairman, I yield back.
    Mr. Rohrabacher. Well, I want to thank our witnesses. I 
want to thank my two colleagues for joining us.
    This has been, I would say, an enlightening hearing. It was 
fun, transmitting important information and doing so in a way 
that is interesting. Thank you, witnesses. Thank you very much 
for coming and sharing your expertise in the way you did.
    Let me just say that I visited Pompeii with my family. Have 
you ever visited Pompeii? Pompeii was one of the most powerful 
cities in the world. People who have not been there should 
visit Pompeii to see what nature can do overnight. There you 
have this evidence that has been put down. People's bodies are 
covered with that soot and everything.
    But what is most important is here you had this powerful 
city, and within a day it no longer really existed. We know 
that there are major challenges in nature. I mentioned 
asteroids or something like that, and we do need to make sure 
that we do understand that these challenges are there and what 
we can do about them. You have outlined today what we can do 
that would perhaps save lives in the long run and make sure 
that if there is a major earthquake, which there will be, in 
Southern California, that we survive that and that we minimize 
the suffering that will take place in one of these acts of 
nature.
    So you have given us specific actions and specific policies 
that you said would help deal with that and help us minimize 
that type of suffering that would result from an earthquake. So 
let's hope that we can now--we understand the challenge. The 
biggest challenge is making sure we are responsible enough. If 
it is only $200 million, not even billions --
    [Laughter.]
    Mr. Rohrabacher. When people come to us, it is always 
billions, right? Well, that is a very reasonable amount. But we 
have a trillion-dollar deficit we have to deal with. And I 
would hope that when we look at that issue of spending a 
trillion dollars more than we are taking in, that what you have 
talked about today, I believe a primary responsibility of 
government, especially the Federal Government, is to make sure 
that they protect the safety of the American people, both from 
foreign attack but also by natural disasters, what we are 
discussing today. So it is our responsibility. Thank you for 
giving us some insights that will be useful to us.
    With that said, the record will remain open for two weeks 
for additional comments and written questions from members.
    The hearing is now adjourned.
    [Whereupon, at 3:58 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Stephen Hickman

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record



           Report submitted by Representative Jerry McNerney
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          

                                 <all>
</pre></body></html>
